UN ITED STATES OF AM ERICA

FEDERAL TRADE COMMISSION
W ASH IN GTO N , D .C. 20580

D ivision of M arketing Practices
Craig Tregillus
ctregillus@ ftc.gov

D irect D ial: (202) 326-2970
Facsim ile: (202) 326-3395

November 24, 2009
Harvey I. Lapin, Esq.
Harvey I. Lapin, PC
P.O. Box 1327
Northbrook, IL 60065-1327
Dear Mr. Lapin:
This letter responds to your request for a staff opinion interpreting Section 453.4(e)(2) of
the Funeral Rule, which prohibits claims representing “that funeral goods have protective
features or will protect the body from gravesite substances, when such is not the case.”1 You
ask, in particular, whether this provision bars an advertisement by a funeral provider that
expressly claims a burial vault is “waterproof.”
The Commission’s discussion of this provision in the Statement of Basis and Purpose
(“SBP”) for the Rule specifically cites claims that caskets and burial vaults are “airtight,
watertight, or offer special protection against the elements” or are “waterproof.”2 Although the
SBP thus makes it clear that Section 453.4(e)(2) applies to a claim that a casket or vault is
“waterproof,” the prohibition only applies to such claims by funeral providers if they are untrue;
i.e., “when such is not the case.” The SBP points out that it is typically “impossible to estimate
how often such claims are false, because consumers are unable to discover whether protective
claims are inflated without exhuming the body.”
Your request was prompted by an advertisement in which a funeral provider expressly
represents that it sells “a quality VAULT that is water proof and has a warranty in writing” and
costs “less than you paid for a plastic or concrete box.” The funeral provider that placed this ad
may be held liable for violating Section 453.4(e)(2) of the Rule if the claim is untrue – even if
the provider is simply repeating a representation made by the manufacturer. Any funeral
provider that repeats a claim that funeral goods have protective features adopts that claim as its
own and can be held liable for making false or unsubstantiated claims.

1

2

16 C.F.R. § 453.3(e)(2).

47 Fed. Reg. 42280, 42278 & n.186 (Sept. 24, 1982), available at
http://www.ftc.gov/bcp/rulemaking/funeral/funrlprac.pdf.

Harvey I. Lapin, Esq.
Page 2 of 2
As you know, the views expressed in this letter are those of the FTC staff. They have not
been reviewed, approved, or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted
on the FTC website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

